      ~ SERVICES




"~'o/+~
~
 :<       ~  ~         DEPARTMENT OF HEALTH & HUMAN SERVICES                                       Office    of Audit Services
                                                                                                   O_ffi_lc_e_Of_ln_SP_ec_to_r_Ge_n_era_I_ _


 ~~+~~\[-                      MAR 0 3 2009                                                        Region VII
                                                                                                   60 I East 12th Street
                                                                                                   ROOlTI 429
                                                                                                   Kansas City, Missouri 64106

                   Report Number: A-07-08-03111

                   Ms. Tresia Franklin
                   Director of Total Reports
                   Hallmark Cards, Inc.
                   2501 McGee Street
                   P.O. Box 419580, Mail Drop 185
                   Kansas City, Missouri 64141-6580

                   Dear Ms. Franklin:

                   Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
                   General (OIG), final report entitled "Review of Retiree Drug Subsidy Plan Sponsor Hallmark
                   Cards, Inc., for Plan Year Ended December 31,2006." We will forward a copy of this report to
                   the HHS action official noted below.

                   Pursua11t to the Freedom of Information Act, 5 U.S.C. § 552, OIG reports generally are made
                   available to the public to the)extent that information in the report is not subject to exemptions in
                   the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

                   If you have any questions or comn1ents about this report, please direct them to the HHS action
                   official. Please refer to report number A-07-08-03111 in all correspondence.

                                                                  Sincerely,



                                                                  Patrick J. Cogley
                                                                  Regional Inspector General
                                                                   for Audit Services

                   Enclosure

                   UUS Action Official:

                   Ms. Nanette Foster Reilly, Consortium Administrator
                   Consortium for Financial Management & Fee for Service Operations
                   Centers for Medicare & Medicaid Services
                   601 East 12 th Street, Room 235
                   Kansas City, Missouri 64106
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   REVIEW OF RETIREE DRUG
    SUBSIDY PLAN SPONSOR
  HALLMARK CARDS, INC., FOR
      PLAN YEAR ENDED
     DECEMBER 31, 2006




                    Daniel R. Levinson
                     Inspector General

                       March 2009
                      A-07-08-03111
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (Public
Law 108-173) (MMA) amended Title XVIII of the Social Security Act by establishing the
Medicare Part D prescription drug benefit. Under Medicare Part D, which was implemented
effective January 1, 2006, individuals entitled to benefits under Medicare Part A or enrolled in
Medicare Part B may obtain drug coverage. In addition, Section 101 of the MMA established a
Retiree Drug Subsidy (RDS) program. The Centers for Medicare & Medicaid Services (CMS) is
responsible for the administration of the program. CMS makes subsidy payments to sponsors
(that is, employers and unions) of qualified retiree prescription drug plans for each qualifying
retiree covered under the plan. A qualifying covered retiree is a Medicare Part D eligible
individual who is not enrolled in a Part D plan but who is covered by a qualified retiree
prescription drug plan. The subsidy payments for each qualifying covered retiree generally equal
28 percent of allowable retiree drug costs.

Medicare requires that the sponsor of a qualified retiree prescription drug plan submit an RDS
application to CMS each year. As part of the application process, plan sponsors must submit a
list of qualifying covered retirees. The submitted list must include retiree identification
information as well as the plan sponsor’s coverage effective and termination dates. Plan
sponsors, or their vendors, must accumulate records of retiree drug costs and prepare and submit
cost reports to CMS before requesting subsidy payments. CMS created the RDS secure Web site
as a secure portal for plan sponsors participating in the subsidy program to submit RDS
applications and requests for payment.

Hallmark Cards, Inc., (Hallmark) is a for-profit company headquartered in Kansas City,
Missouri, that offers prescription drug coverage to its retired employees through the Retiree
Medical Plan of Hallmark Cards, Inc. (Plan). Hallmark used three outside vendors to maintain
its RDS program. For plan year 2006, Hallmark received $1,678,234 in subsidy payments based
upon 3,049 eligible retirees, with reported gross retiree drug costs of $8,505,179 and allowable
retiree costs of $5,993,694.

OBJECTIVE

Our objective was to determine whether Hallmark (1) met the plan sponsor requirements;
(2) established controls to ensure that drug subsidy costs were correctly reported; and
(3) established administrative safeguards over retiree data included in the RDS secure website.

SUMMARY OF REVIEW

Hallmark (1) met the requirements to be a plan sponsor; (2) established adequate controls to
ensure that drug subsidy costs were correctly reported; and (3) established adequate
administrative safeguards over retiree data included in the RDS secure website.

This report contains no recommendations.



                                                i
                                                    TABLE OF CONTENTS

                                                                                                                               Page

INTRODUCTION............................................................................................................1

     BACKGROUND .........................................................................................................1
       Retiree Drug Subsidy.............................................................................................1
       Plan Sponsor Requirements ..................................................................................1
       Qualifying Covered Retirees..................................................................................1
       Retiree Drug Subsidy Secure Web Site .................................................................2
       Hallmark Cards, Inc. ..............................................................................................2

     OBJECTIVES, SCOPE, AND METHODOLOGY.....................................................3
       Objectives ...............................................................................................................3
       Scope.......................................................................................................................3
       Methodology ...........................................................................................................4

RESULTS OF REVIEW .................................................................................................5




                                                                       ii
                                              INTRODUCTION

BACKGROUND

Retiree Drug Subsidy

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (Public
Law 108-173) (MMA) amended Title XVIII of the Social Security Act by establishing the
Medicare Part D prescription drug benefit. Under Medicare Part D, which was implemented
effective January 1, 2006, individuals entitled to benefits under Medicare Part A or enrolled in
Medicare Part B may obtain drug coverage. In addition, Section 101 of the MMA established a
Retiree Drug Subsidy (RDS) program. The Centers for Medicare & Medicaid Services (CMS) is
responsible for the administration of the program. CMS makes subsidy payments to sponsors
(that is, employers and unions) of qualified retiree prescription drug plans for each qualifying
retiree covered under the plan. As stated in Federal regulations at 42 CFR § 423.882, a
qualifying covered retiree is a Medicare Part D eligible individual who is not enrolled in a Part D
plan but who is covered by a qualified retiree prescription drug plan.

The subsidy payments for each qualifying covered retiree generally equal 28 percent of
allowable retiree drug costs. The allowable retiree drug costs are based on gross retiree costs
between a cost threshold and a cost limit, 1 minus any price concessions such as discounts or
rebates.

Plan Sponsor Requirements

Medicare requires that the sponsor of a qualified retiree prescription drug plan submit an RDS
application to CMS each year. Pursuant to 42 CFR § 423.884(c), the application must include
identifying information for the plan sponsor, an actuarial attestation that the actuarial value of the
retiree prescription drug coverage under the plan is at least equal to the actuarial value of the
defined standard prescription drug benefit under Medicare Part D, a list of qualifying covered
retirees and identifying information, and a sponsor agreement signed by an authorized
representative of the plan sponsor.

Qualifying Covered Retirees

As part of the application process, plan sponsors must submit a list of qualifying covered
retirees. The submitted list must include retiree identification information, as well as the plan
sponsor’s coverage effective and termination dates. 2 To process a retiree file, CMS queries the
Medicare Beneficiary Database and determines whether each individual is a qualifying covered
retiree eligible for the subsidy based on Medicare entitlement. CMS then determines the periods


1
 The cost threshold and cost limit are determined by CMS. For plan year (PY) 2006 the individual qualifying retiree
cost threshold was $250 and the cost limit was $5,000.
2
 The plan sponsor’s coverage effective and termination dates represent the dates that the plan sponsor provided the
retiree with coverage under the qualified retiree prescription drug plan.


                                                         1
of time during the PY when the retiree is eligible for the subsidy. CMS includes the subsidy
effective and termination dates in the retiree response file that it returns to the plan sponsor.

CMS recommends in its guidance that plan sponsors submit updated retiree files on a periodic
basis to reflect (1) new retirees not reported previously, (2) updates to previously accepted retiree
records, (3) deletions for previously accepted retiree records, and (4) resubmissions. Each time a
plan sponsor submits an updated retiree file, CMS prepares a response file. CMS also sends plan
sponsors a notification file when an event occurs—such as a retiree’s death or enrollment in
Medicare Part D—that may affect a plan sponsor’s ability to receive the subsidy for a particular
retiree.

Pursuant to 42 CFR § 423.888(b), plan sponsors, or their vendors, must accumulate records of
retiree drug costs and prepare and submit cost reports to CMS before requesting subsidy
payments. Plan sponsors can elect to receive interim subsidy payments based on costs reported
to date. A plan sponsor receiving interim payments is required to reconcile interim subsidy
payments within 15 months after the end of its PY. CMS then makes any necessary adjustments
to interim payments for the PY when the reconciliation is completed.

Because plan sponsors submit retiree costs to CMS on an aggregate (rather than an individual
retiree) basis, plan sponsors must carefully manage retiree response and notification files to
ensure that costs are accumulated only for qualifying covered retirees during valid subsidy
periods.

Retiree Drug Subsidy Secure Web Site

CMS, through its contractor ViPS, Inc., created the RDS secure Web site as a secure portal for
plan sponsors participating in the subsidy program to submit RDS applications and requests for
payment. Plan sponsor personnel requiring access to the secure Web site are assigned roles,
including authorized representative, account manager, actuary, and designee. The authorized
representative or account manager can assign designees various duties including completing
portions of the RDS application, submitting retiree data, and requesting subsidy payments.

Hallmark Cards, Inc.

Hallmark Cards, Inc., (Hallmark) is a for-profit company headquartered in Kansas City,
Missouri. Through its benefits department, Hallmark offers prescription drug coverage to its
retired employees through the Retiree Medical Plan of Hallmark Cards, Inc. (Plan).

Hallmark used three outside vendors to maintain its RDS program and elected to receive subsidy
payments on an interim basis:

   •   Blue Cross & Blue Shield of Kansas City (BCBSKC) determined which participants in
       the Plan were qualifying covered retirees. BCBSKC determined eligibility based upon
       employee health information provided by Hallmark.




                                                  2
        BCBSKC provided eligibility determinations to CVS/Caremark to update CMS Part D
        RDS eligibility records on Hallmark’s behalf.

    •   In addition to updating CMS on Hallmark’s retiree eligibility information,
        CVS/Caremark was also Hallmark’s Pharmacy Benefit Manager (PBM) 3 for PY 2006.
        In this capacity, CVS/Caremark processed and maintained the Plan’s drug claims and
        prepared interim RDS cost reports to submit to CMS on Hallmark’s behalf.

    •   Mercer (a consulting company) was responsible for preparing the reconciled cost report
        for PY 2006, based on the data from CVS/Caremark.

        Based on that reconciliation, for PY 2006, Hallmark received $1,678,234 in subsidy
        payments based upon 3,049 eligible retirees, with reported gross retiree drug costs of
        $8,505,179 and allowable retiree costs of $5,993,694.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Hallmark (1) met the plan sponsor requirements;
(2) established controls to ensure that drug subsidy costs were correctly reported; and
(3) established administrative safeguards over retiree data included in the RDS secure website.

Scope

We reviewed Hallmark’s PY 2006 RDS application, retiree lists, and cost reports. Our review
was limited to determining whether Hallmark correctly reported drug costs for qualifying
covered retirees and for applicable periods of RDS eligibility. We also reviewed the RDS secure
Web site users associated with Hallmark’s application for PY 2006.

Our objectives did not require an understanding or assessment of the complete internal control
system at Hallmark. We limited our review of internal controls to obtaining an understanding
of Hallmark’s process for monitoring and updating its retiree files and coordinating with its
outside vendors to ensure that costs claimed for subsidy payments represented costs for
qualifying covered retirees.

We performed our field work at Hallmark’s offices in Kansas City, Missouri; CVS/Caremark’s
offices in Scottsdale, Arizona, and Chicago, Illinois; and Mercer’s office in Scottsdale, Arizona;
from July through November 2008.




3
 PBMs work with third party payers (private insurers, self-funded employers, and public health programs) to
manage consumer drug purchases by defining which drugs will be paid for, the amount that the pharmacy will
receive, and how much the consumer must pay out-of-pocket when the prescription is filled.



                                                        3
Methodology

To accomplish our objectives, we:

   •   reviewed applicable laws, regulations, Medicare program guidance, and the American
       Academy of Actuaries’ (AAA) guidance;

   •   met with Hallmark’s actuary and reviewed its working papers to verify that the actuary
       had completed and submitted the attestation in accordance with CMS and AAA guidance;

   •   reviewed Hallmark’s notice of creditable coverage sent to Medicare Part D eligible
       retirees for the period beginning January 1, 2006;

   •   reviewed Hallmark’s PY 2006 RDS application to determine whether the information
       provided was complete, accurate, and submitted to CMS by the October 31, 2005,
       deadline, and to verify that CMS had approved the application;

   •   reviewed a judgmentally selected sample of 50 retirees to determine whether Hallmark
       claimed prescription drug expenditures only on eligible retirees, only for expenditures
       during the PY that exceeded the cost threshold and fell below the cost limit, and only
       within the retirees’ Plan coverage dates;

   •   reviewed information from the Medicare Beneficiary Database to determine whether the
       sampled retirees were enrolled in Medicare Parts A & B and were Medicare Part D
       eligible, but not enrolled in a Medicare Part D prescription drug plan;

   •   reviewed documentation provided by Hallmark to determine whether the sampled retirees
       met Hallmark’s criteria for retiree health coverage and were enrolled in a retiree health
       plan approved for the RDS;

   •   met with Hallmark’s and its vendors’ personnel responsible for the RDS process to obtain
       an understanding of the application process and their procedures for submitting retiree
       files to CMS and for processing retiree response and notification files received from
       CMS;

   •   reviewed PY 2006 interim cost reports submitted by CVS/Caremark in November 2006
       and January 2007, and the reconciled cost report submitted by Mercer in March 2008;

   •   reviewed Hallmark’s vendor contracts with CVS/Caremark and Mercer; and

   •   identified Hallmark’s secure Web site users for the PY 2006 application and determined
       whether the users were assigned and registered in accordance with program policies.




                                               4
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                   RESULTS OF REVIEW

Hallmark (1) met the requirements to be a plan sponsor; (2) established adequate controls to
ensure that drug subsidy costs were correctly reported; and (3) established adequate
administrative safeguards over retiree data included in the RDS secure website.

This report contains no recommendations.




                                                5
